No. 20-222

In the Supreme Court of the United States
GOLDMAN SACHS GROUP, INC., ET AL., PETITIONERS
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

BRIEF FOR THE PETITIONERS
RICHARD H. KLAPPER
ROBERT J. GIUFFRA, JR.
DAVID M.J. REIN
BENJAMIN R. WALKER
JULIA A. MALKINA
JACOB E. COHEN
SULLIVAN & CROMWELL LLP
125 Broad Street
New York, NY 10004

KANNON K. SHANMUGAM
Counsel of Record
STACIE M. FAHSEL
E. GARRETT WEST
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
AUDRA J. SOLOWAY
KRISTINA A. BUNTING
SARAH J. PROSTKO
CAROLINE S. WILLIAMSON
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019

QUESTIONS PRESENTED

1. Whether a defendant in a securities class action
may rebut the presumption of classwide reliance recognized in Basic Inc. v. Levinson, 485 U.S. 224 (1988), by
pointing to the generic nature of the alleged misstatements in showing that the statements had no impact on
the price of the security, even though that evidence is also
relevant to the substantive element of materiality.
2. Whether a defendant seeking to rebut the Basic
presumption has only a burden of production or also the
ultimate burden of persuasion.

(I)

PARTIES TO THE PROCEEDING
AND CORPORATE DISCLOSURE STATEMENT

Petitioners are The Goldman Sachs Group, Inc.; Lloyd
C. Blankfein; Gary D. Cohn; and David A. Viniar. The
Goldman Sachs Group, Inc., has no parent corporation,
and no publicly held company holds 10% or more of its
stock.
Respondents are Arkansas Teacher Retirement System; West Virginia Investment Management Board; and
Plumbers and Pipefitters National Pension Fund.

(II)

TABLE OF CONTENTS

Page
Opinions below ................................................................................ 1
Jurisdiction ...................................................................................... 1
Rules involved ................................................................................. 2
Statement ......................................................................................... 3
A. Background ........................................................................ 6
B. Facts and procedural history ......................................... 10
Summary of argument ................................................................. 20
Argument ....................................................................................... 24
I. A defendant in a securities class action may
rebut the Basic presumption of classwide
reliance by pointing to the generic nature
of the alleged misstatements....................................... 24
A. In determining whether a defendant has
rebutted the Basic presumption, a court
must consider any evidence bearing
on price impact .......................................................... 24
B. The generic nature of an alleged
misstatement is evidence that is highly
relevant to the price-impact inquiry ...................... 26
C. This Court’s decision in Amgen does not
require a contrary approach ................................... 30
D. The court of appeals’ contrary approach
would have serious adverse consequences for
public companies ....................................................... 33
II. The plaintiffs in a securities class action
retain the ultimate burden of persuasion
when invoking the Basic presumption....................... 37
III. The Court should reverse the judgment below ........ 43
Conclusion ...................................................................................... 48

(III)

IV
TABLE OF AUTHORITIES

Page
Cases:
Alaska Electrical Pension Fund v. Pharmacia Corp.,
554 F.3d 342 (3d Cir. 2009) .............................................. 30
Allstate Corp. Securities Litigation, In re,
966 F.3d 595 (7th Cir. 2020) ............................................ 31
Amgen Inc. v. Connecticut Retirement Plans
& Trust Funds, 568 U.S. 455 (2013) ...................... passim
Basic Inc. v. Levinson, 485 U.S. 224 (1988) .............. passim
Beech Aircraft Corp. v. Rainey,
488 U.S. 153 (1988) ........................................................... 38
Blue Chip Stamps v. Manor Drug Stores,
421 U.S. 723 (1975) .............................................................. 6
Celotex Corp. v. Catrett, 477 U.S. 317 (1986) ...................... 41
Comcast Corp. v. Behrend,
569 U.S. 27 (2013) .............................................. 7, 25, 27, 39
Coopers & Lybrand v. Livesay,
437 U.S. 463 (1978) ............................................................ 35
Director, Office of Workers’ Compensation
Programs v. Greenwich Collieries,
512 U.S. 267 (1994) ...................................................... 38, 42
Dura Pharmaceuticals, Inc. v. Broudo,
544 U.S. 336 (2005) ........................................................ 7, 36
ECA & Local 134 IBEW Joint Pension Trust
of Chicago v. JP Morgan Chase Co.,
553 F.3d 187 (2d Cir. 2009) .............................................. 37
Erica P. John Fund, Inc. v. Halliburton Co.,
309 F.R.D. 251 (N.D. Tex. 2015) ..................................... 35
Erica P. John Fund, Inc. v. Halliburton Co.,
563 U.S. 804 (2011) .................................................... 8, 9, 30
FindWhat Investor Group v. FindWhat.Com,
658 F.3d 1282 (11th Cir. 2011),
cert. denied, 568 U.S. 814 (2012) ..................................... 29
Finisar Corp. Securities Litigation, In re,
Civ. No. 11-1252, 2017 WL 6026244
(N.D. Cal. Dec. 5, 2017) .................................................... 35

V
Page
Cases—continued:
Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) ................................................... passim
Hevesi v. Citigroup Inc., 366 F.3d 70 (2d Cir. 2004) ......... 36
IBEW Local 98 Pension Fund v. Best Buy Co.,
818 F.3d 775 (8th Cir. 2016) ............................................. 35
Intuitive Surgical Securities Litigation, In re,
Civ. No. 13-1920, 2016 WL 7425926
(N.D. Cal. Dec. 22, 2016) .................................................. 35
Metropolitan Stevedore Co. v. Rambo,
521 U.S. 121 (1997) ............................................................ 47
Morgan Stanley Information Fund Securities
Litigation, In re, 592 F.3d 347 (2d Cir. 2010) ............... 37
NLRB v. Transportation Management Corp.,
462 U.S. 393 (1983) ............................................................ 42
Ohio Public Employees Retirement System
v. Federal Home Loan Mortgage Corp.,
Civ. No. 08-160, 2018 WL 3861840
(N.D. Ohio Aug. 14, 2018) ................................................ 35
Pullman-Standard v. Swint, 456 U.S. 273 (1982) ............. 43
Reiter v. Sonotone Corp., 442 U.S. 330 (1979).................... 41
St. Mary’s Honor Center v. Hicks,
509 U.S. 502 (1993) ................................................ 38, 39, 41
Stoneridge Investment Partners LLC
v. Scientific-Atlanta, Inc., 552 U.S. 148 (2008)....... 33, 36
Superintendent of Insurance v. Bankers Life
& Casualty Co., 404 U.S. 6 (1971) ................................... 40
Texas Department of Community Affairs
v. Burdine, 450 U.S. 248 (1981)....................................... 42
Vivendi, S.A., Securities Litigation, In re,
838 F.3d 223 (2d Cir. 2016) ........................................ 13, 28
Waggoner v. Barclays PLC,
875 F.3d 79 (2d Cir. 2017),
cert. denied, 138 S. Ct. 1702 (2018) ........................... 40, 42
Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338 (2011) ................................................... passim

VI
Page
Statutes, regulations, and rules:
Securities Exchange Act of 1934,
Pub. L. No. 73-291, 48 Stat. 881
15 U.S.C. 78j(b) (§ 10(b))......................................... passim
15 U.S.C. 78t(a) (§ 20(a)) .................................................. 10
28 U.S.C. 1254(1) ...................................................................... 1
17 C.F.R. 240.10b-5 ...................................................... 7, 10, 35
17 C.F.R. 240.10b-5(b) ....................................................... 6, 31
Fed. R. Civ. P. 23........................................................... passim
Fed. R. Civ. P. 23(b)(3) ................................................ 7, 36, 41
Fed. R. Evid. 301 ........................................................... passim
Fed. R. Evid. 401 .................................................................... 27
Miscellaneous:
Janet Cooper Alexander, Rethinking Damages
in Securities Class Actions,
48 Stan. L. Rev. 1487 (1996) ............................................ 36
Kenneth S. Broun et al., McCormick on Evidence
(8th ed. 2020) ..................................................................... 38
John C. Coffee, Jr., The Changing Character of
Securities Litigation in 2019: Why It’s Time to
Draw Some Distinctions, CLS Blue
Sky Blog (Jan. 22, 2019)
<tinyurl.com/changingcharactersecurities> ............... 36
Goldman Sachs, Annual Report (1999)
<tinyurl.com/annualreport-gs-1999> ........................... 11
Goldman Sachs, Annual Report (2019)
<tinyurl.com/annualreport-gs-2019> ........................... 43
Note, Congress, the Supreme Court, and the Rise of
Securities-Fraud Class Actions,
132 Harv. L. Rev. 1067 (2019) ......................................... 34
Stanford Law School, Securities Class Action
Clearinghouse, Filings by Year (last visited
Jan. 25, 2021) <tinyurl.com/filingsbyyear> ................. 35
The Goldman Sachs Group, Inc., Annual Report
(Form 10-K) (Feb. 27, 2003) ........................................... 11

In the Supreme Court of the United States
No. 20-222
GOLDMAN SACHS GROUP, INC., ET AL., PETITIONERS
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

BRIEF FOR THE PETITIONERS

OPINIONS BELOW

The opinion of the court of appeals (Pet. App. 1a-46a)
is reported at 955 F.3d 254. The earlier opinion of the
court of appeals (Pet. App. 60a-78a) is reported at 879
F.3d 474. The opinions of the district court (Pet. App. 47a59a, 79a-94a) are unreported.
JURISDICTION

The judgment of the court of appeals was entered on
April 7, 2020. A petition for rehearing was denied on June
15, 2020 (Pet. App. 95a-96a). The petition for a writ of certiorari was filed on August 21, 2020, and was granted on
December 11, 2020. The jurisdiction of this Court rests
on 28 U.S.C. 1254(1).
(1)

2
RULES INVOLVED

Federal Rule of Civil Procedure 23 provides in relevant part:
(a) Prerequisites. One or more members of a class
may sue or be sued as representative parties on behalf
of all members only if:
(1) the class is so numerous that joinder of all members is impracticable;
(2) there are questions of law or fact common to the
class;
(3) the claims or defenses of the representative
parties are typical of the claims or defenses of the
class; and
(4) the representative parties will fairly and adequately protect the interests of the class.
(b) Types of Class Actions. A class action may be
maintained if Rule 23(a) is satisfied and if:
*
*
*
(3) the court finds that the questions of law or fact
common to class members predominate over any
questions affecting only individual members, and
that a class action is superior to other available
methods for fairly and efficiently adjudicating the
controversy.
Federal Rule of Evidence 301 provides:
In a civil case, unless a federal statute or these
rules provide otherwise, the party against whom a
presumption is directed has the burden of producing evidence to rebut the presumption. But this
rule does not shift the burden of persuasion, which
remains on the party who had it originally.

3
STATEMENT

This case concerns the presumption of classwide reliance first recognized in Basic Inc. v. Levinson, 485 U.S.
224 (1988)—a presumption that plaintiffs ordinarily must
invoke for a private securities case to proceed as a class
action. In Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) (Halliburton II), this Court held that
a defendant must be able to rebut the Basic presumption
by presenting evidence that the alleged misrepresentation did not affect the price of the relevant security. In so
holding, the Court struck a careful balance between enabling securities plaintiffs to proceed on a classwide basis
and providing defendants with a meaningful opportunity
to defeat class certification. Since Halliburton II, however, lower courts have upended that careful balance and
treated the Basic presumption as effectively irrebuttable
in practice.
This case presents two exceptionally important questions concerning the operation of the Basic presumption:
first, whether a defendant may rebut the Basic presumption by pointing to the generic nature of alleged misstatements to show they had no price impact, and second,
whether a defendant seeking to rebut the Basic presumption has only a burden of production or also the ultimate
burden of persuasion.
Respondents, Goldman Sachs shareholders, brought
suit under the federal securities laws against petitioners,
Goldman Sachs and three former executives, seeking $13
billion in damages. Respondents alleged that petitioners
had engaged in securities fraud by making certain general
and aspirational statements of the sort that virtually
every public company makes, such as “[o]ur clients’ interests always come first” and “[i]ntegrity and honesty are
at the heart of our business.” Respondents further al-

4
leged that those generic statements—which had been repeated in company communications for years—were
fraudulent because Goldman Sachs had undisclosed conflicts of interest.
Critically, respondents conceded that the challenged
statements did not increase Goldman Sachs’ stock price
when made. Instead, respondents relied on the increasingly popular “inflation-maintenance” theory—a theory
this Court has never endorsed—to assert that the statements maintained the stock price at a previously inflated
level. Although respondents did not identify the original
source of inflation, they claimed it could be inferred that
the challenged statements maintained inflation in Goldman Sachs’ stock price simply because the price later
dropped following reports of government enforcement activity concerning alleged conflicts of interest in certain securities the firm sold.
Invoking the Basic presumption, respondents moved
for class certification. Petitioners sought to rebut the presumption with substantial evidence that the statements
did not affect the price of the security. Specifically, petitioners pointed to the exceptionally generic nature of the
alleged misstatements, arguing that such statements,
which are pervasive in company communications, do not
move stock prices. Petitioners also presented uncontradicted evidence that Goldman Sachs’ stock price did not
decline on 36 separate dates when the press reported in
detail on the alleged conflicts of interest. On top of that,
petitioners presented evidence that the price later declined because the market reacted to reports of government enforcement activity, not the correction of the alleged misstatements.
Despite all of that evidence, the district court concluded that petitioners had failed to rebut the presump-

5
tion and certified the class. On appeal, the court of appeals first held that a defendant seeking to rebut the
Basic presumption bears the ultimate burden of persuasion to prove the absence of price impact. A divided court
of appeals subsequently held that petitioners had failed to
rebut the Basic presumption. In so doing, the court refused to consider the generic nature of the alleged misstatements, reasoning that petitioners were improperly
seeking to “smuggl[e] materiality,” a merits issue, into the
price-impact inquiry at class certification.
The court of appeals erred in two respects. First, it
erroneously held that petitioners could not point to the generic nature of the alleged misstatements to show the absence of price impact. That holding contravenes this
Court’s mandate in Halliburton II that a defendant is entitled to rebut the Basic presumption at class certification
with any relevant evidence, regardless of whether that evidence is also relevant to the merits of plaintiffs’ claims.
Second, the court of appeals erroneously held that petitioners had the burden of persuasion to rebut the Basic
presumption. The plain text of Federal Rule of Evidence
301, together with the silence of the federal securities
laws, commands that a defendant seeking to rebut a presumption has only the burden of production.
Taken together, the court of appeals’ holdings effectively guarantee class certification in virtually any securities class action based on the inflation-maintenance theory. Plaintiffs need only identify a drop in a company’s
stock price following a negative event, then assert that the
stock price had been improperly maintained by a company’s generic statements, without having to show when
or how the inflation entered the company’s stock price.
That theory forecloses a defendant from rebutting the
Basic presumption by pointing to the most obvious evi-

6
dence of the absence of price impact in a traditional securities class action: evidence that the price did not increase
when the alleged misrepresentation was made. Instead,
the defendant must also show that the alleged “correction” of the challenged statement did not cause any part
of the subsequent decrease in price.
The decision below further limits the evidence a defendant can use to show the absence of price impact—and
imposes an almost impossible burden on defendants—
rendering the Basic presumption effectively irrebuttable
in putative securities class actions. The Court should
overturn the court of appeals’ erroneous holdings. And
under an application of the correct legal standards, this is
not a close case. To provide much needed guidance to
lower courts on the operation of the Basic presumption,
the Court should hold that class certification was improper here and reverse the judgment below.
A. Background

1. Section 10(b) of the Securities Exchange Act of
1934 prohibits the “use or employ[ment]” of any “deceptive device” “in connection with the purchase or sale of
any security” in contravention of rules prescribed by the
Securities and Exchange Commission (SEC). 15 U.S.C.
78j(b). SEC Rule 10b-5 forbids entities subject to the Act
from “mak[ing] any untrue statement of a material fact”
or “omit[ting] to state a material fact necessary in order
to make the statements made * * * not misleading.” 17
C.F.R. 240.10b-5(b).
This Court has inferred from those sources of law a
private right of action permitting the recovery of damages
for securities fraud. See Blue Chip Stamps v. Manor
Drug Stores, 421 U.S. 723, 730 (1975). The elements of
such a claim are a material misstatement or omission; scienter; a connection with the purchase or sale of a security;

7
economic loss; loss causation (i.e., that the misrepresentation caused the asserted loss); and, of particular importance here, reliance. See Dura Pharmaceuticals, Inc.
v. Broudo, 544 U.S. 336, 341-342 (2005).
2. To obtain class certification in a private action under Section 10(b) and Rule 10b-5, plaintiffs must satisfy
the familiar requirements of Federal Rule of Civil Procedure 23. For a class seeking to recover damages, plaintiffs
must show that “the questions of law or fact common to
class members predominate over any questions affecting
only individual members.” Fed. R. Civ. P. 23(b)(3). That
requirement is a “demanding” one, and this Court has instructed lower courts to take a “close look” to ensure that
common questions predominate over individual ones.
Comcast Corp. v. Behrend, 569 U.S. 27, 33-34 (2013) (citation omitted). Plaintiffs must “affirmatively demonstrate” compliance with the predominance requirement
“through evidentiary proof.” Id. at 33 (citation omitted).
As the Court has repeatedly emphasized, class certification is proper only if a court is satisfied, after a “rigorous analysis,” that the requirements of Rule 23 have been
met. Comcast, 569 U.S. at 33 (citation omitted). That
analysis will “frequently entail overlap with the merits of
the plaintiff’s underlying claim,” because it “involves considerations that are enmeshed in the factual and legal issues comprising the plaintiff’s cause of action.” Id. at 3334 (internal quotation marks and citation omitted). The
“most common example” of when a court must consider a
“merits question at the Rule 23 stage” is in a securities
class action. Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338,
351 n.6 (2011).
Plaintiffs asserting Section 10(b) claims ordinarily
could not satisfy Rule 23’s predominance requirement because the element of reliance would require individualized

8
inquiries into whether each potential class member purchased stock in reliance on the alleged misrepresentation.
But in Basic, supra, the Court made it easier for plaintiffs
to satisfy the predominance requirement by recognizing a
“rebuttable presumption” of classwide reliance. 485 U.S.
at 242, 250. That presumption is based on the “fraud-onthe-market” theory, under which the price of a company’s
stock traded in an efficient market is assumed to reflect
all public information about the company. See id. at 247.
The fraud-on-the-market theory, in turn, allows a
court to presume that investors relied on a public company’s material misrepresentation in buying or selling the
relevant security at the market price. See Amgen Inc. v.
Connecticut Retirement Plans & Trust Funds, 568 U.S.
455, 461-462 (2013). To invoke the Basic presumption at
class certification, plaintiffs must show that the alleged
misrepresentation was public; that the stock traded in an
efficient market; and that the plaintiffs traded between
when the misrepresentation was made and when the truth
was revealed. See Erica P. John Fund, Inc. v. Halliburton Co., 563 U.S. 804, 811 (2011) (Halliburton I).
Once plaintiffs make that showing, a defendant can rebut the Basic presumption with “[a]ny showing that severs the link between the alleged misrepresentation and either the price received (or paid) by [a] plaintiff, or his decision to trade at a fair market price.” Basic, 485 U.S. at
248. Of particular relevance here, if a defendant “show[s]
that the misrepresentation in fact did not lead to a distortion in price,” it breaks the “causal connection” by eliminating “the basis for finding that the fraud had been
transmitted through [the] market price.” Ibid.
3. In three recent decisions, this Court has addressed
the relationship between the Basic presumption of reliance and the substantive elements of a Section 10(b)

9
claim. In Halliburton I, supra, the Court held that plaintiffs seeking class certification need not prove the substantive element of loss causation at class certification, because loss causation “addresses a matter different from”
reliance. 563 U.S. at 812. Specifically, loss causation requires plaintiffs to show that “a misrepresentation that affected the integrity of the market price also caused a subsequent economic loss.” Ibid. And in Amgen, supra, the
Court similarly held that plaintiffs seeking class certification need not prove the substantive element of materiality. See 568 U.S. at 474.
Then, in Halliburton II, supra, the Court held that a
court must consider evidence a defendant offers to show
that an alleged misrepresentation did not affect the price
of the relevant security, even if that same evidence would
be “highly relevant at the merits stage.” 573 U.S. at 283.
The Court reasoned that a defendant is entitled to rebut
the Basic presumption through any evidence showing
that “the asserted misrepresentation (or its correction)
did not affect the market price of the defendant’s stock.”
Id. at 280, 284. The Court observed that Basic’s requirements are an “indirect proxy” for price impact, and an indirect proxy should not “preclude direct evidence” that
the market price was not, in fact, affected. Id. at 281.
As the Court explained, “in the absence of price impact, Basic’s fraud-on-the-market theory and presumption of reliance collapse.” Halliburton II, 573 U.S. at 278.
After all, the “fundamental premise” of the Basic presumption is that “an investor presumptively relies on a
misrepresentation so long as it was reflected in the market price.” Ibid. (internal quotation marks and citation
omitted). “If it was not,” the Court continued, there is “no
grounding” for the conclusion that the investor “indirectly
relied” on the misrepresentation through the investor’s

10
“reliance on the integrity of the market price.” Ibid.
(brackets and citation omitted).
In permitting a defendant to rebut the Basic presumption through evidence of the absence of price impact, the
Court made clear that “price impact differs from materiality.” 573 U.S. at 282. While materiality is a substantive
element of a securities claim, “[t]he fact that a misrepresentation was reflected in the market price at the time of
[the] transaction * * * has everything to do with the
issue of predominance at the class certification stage.” Id.
at 283 (internal quotation marks and citation omitted).
The Court thus prohibited a court from “artificially
limit[ing]” the evidence at class certification and expressly permitted a defendant to “seek to defeat the Basic
presumption at that stage through direct as well as indirect price impact evidence.” Ibid.
B. Facts And Procedural History

1. Petitioners are The Goldman Sachs Group, Inc.,
and three of its former executives. In 2010, respondents,
Goldman Sachs shareholders, brought this securities
class action against petitioners in the United States District Court for the Southern District of New York, alleging violations of Section 10(b) and Rule 10b-5 (as well as
Section 20(a), the provision for “control person” liability).
Respondents alleged that petitioners made material
misstatements concerning Goldman Sachs’ aspirational
goals and risks of conflicts of interest. Of relevance here,
respondents relied on two categories of generic statements.
First, respondents challenged statements in (or relating to) Goldman Sachs’ aspirational “Business Principles,” which the firm provides to its employees and has
published in its annual reports since 1999. For example:

11
•

“Our clients’ interests always come first.”

•

“Integrity and honesty are at the heart of our business.”

•

“We are dedicated to complying fully with the letter and spirit of the laws, rules, and ethical principles that govern us.”

J.A. 31-33; Goldman Sachs, Annual Report 82 (1999) <tinyurl.com/annualreport-gs-1999>.
Second, respondents challenged Goldman Sachs’ generic warnings about the risks of conflicts of interest,
which have appeared in substantially similar form in the
“Risk Factors” section of Goldman Sachs’ annual SEC filings since at least 2003. For example:
•

“As we have expanded the scope of our businesses
and our client base, we increasingly have to address potential conflicts of interest.”

•

“Conflicts of interest are increasing and a failure
to appropriately identify and deal with conflicts of
interest could adversely affect our businesses.”

•

“We have extensive procedures and controls that
are designed to identify and address conflicts of interest, including those designed to prevent the improper sharing of information among our businesses.”

J.A. 27-29; D. Ct. Dkt. 136, at 5-6; The Goldman Sachs
Group, Inc., Annual Report (Form 10-K), at 20 (Feb. 27,
2003).
None of the challenged statements referred to any
specific transaction. Nor did the statements represent
that Goldman Sachs would (or could) successfully manage, much less avoid, all conflicts. To the contrary, the
statements were accompanied by a cautionary statement:

12
[A]ppropriately identifying and dealing with conflicts
of interest is complex and difficult, and our reputation
could be damaged * * * if we fail, or appear to fail,
to identify and deal appropriately with conflicts of interest. In addition, potential or perceived conflicts
could give rise to litigation or enforcement actions.
J.A. 29.
Goldman Sachs sells various types of financial instruments to sophisticated counterparties, including collateralized debt obligations (CDOs). Respondents alleged
that the challenged statements were fraudulent because
Goldman Sachs had conflicts of interest in four CDOs—
named Abacus, Hudson, Timberwolf, and Anderson—
that it sold in 2006 and 2007. Respondents further alleged
that three “corrective disclosures” revealed to the market
the falsity of the challenged statements by exposing the
conflicts: (1) an April 16, 2010, SEC enforcement action
alleging that Goldman Sachs committed fraud in sponsoring the Abacus CDO by not disclosing to purchasers of
notes in the CDO that a hedge fund played a role in the
asset-selection process; (2) an April 30, 2010, Wall Street
Journal report that the Department of Justice (DOJ) was
investigating Goldman Sachs for unspecified mortgage
trading; and (3) June 10, 2010, reports that the SEC was
investigating whether Goldman Sachs profited by selling
the Hudson CDO when it knew the CDO would decline in
value. J.A. 289-296.
In fact, DOJ never brought any criminal charges
against Goldman Sachs regarding its mortgage trading.
Nor were any of the challenged statements ever the subject of a government enforcement action, including the
SEC action concerning the Abacus CDO that purportedly
acted as one of the three “corrective disclosures.” That
action was focused on different statements made to sophisticated investors that purchased CDO notes, not any

13
statements to Goldman Sachs shareholders. The SEC
never brought an action regarding the Hudson CDO.
2. Petitioners moved to dismiss, and the district court
denied the motion in relevant part. The court rejected petitioners’ contention that the alleged misstatements were
immaterial as a matter of law. Pet. App. 7a.
Respondents then moved to certify a class of purchasers of Goldman Sachs stock between February 5, 2007,
and June 10, 2010, invoking the Basic presumption. Because respondents could not show that the challenged
statements affected Goldman Sachs’ stock price when
made, they relied on an ambitious use of the so-called “inflation maintenance” or “price maintenance” theory—a
theory previously recognized by lower courts in limited
circumstances, but never by this Court. See, e.g., In re
Vivendi, S.A., Securities Litigation, 838 F.3d 223, 257 (2d
Cir. 2016).
Under the inflation-maintenance theory, a misrepresentation can have an actionable price impact even if it
does not cause the stock price to go up, simply by preventing an already inflated stock price from decreasing. Notably, unlike in other inflation-maintenance cases involving discrete financial or operational announcements, respondents here did not identify any inflation-creating conduct that caused the inflation in the relevant stock price
in the first place. Instead, they alleged only that the three
purported “corrective disclosures” resulted in stock-price
drops attributable to the challenged statements. J.A. 164165; C.A. App. 224-225.
Petitioners sought to rebut the Basic presumption
with evidence that the alleged misstatements had no price
impact. Of particular relevance here, petitioners argued
that the “general, aspirational statements” alleged as misstatements could not have affected the stock price, and

14
they contended that the nature of the statements was relevant evidence in assessing price impact despite any
“overlap with the considerations relevant to the merits issue[] of materiality.” D. Ct. Dkt. 142, at 17-18.
Petitioners also presented evidence that Goldman
Sachs’ stock price had not declined in response to news
reports on 36 separate dates before the purported “corrective disclosures”—reports that appeared, among other
places, on the front pages of the Wall Street Journal and
the New York Times—even though those reports contained detailed allegations about Goldman Sachs’ conflicts
of interest. Indeed, respondents’ first purported “corrective disclosure”—the SEC enforcement action regarding
the Abacus CDO—was based on one of the very conflicts
already disclosed in the press. J.A. 689-694.
The district court certified the class. Pet. App. 79a94a. The court refused to consider petitioners’ evidence
about the nature of the challenged statements and about
the failure of Goldman Sachs’ stock price to decline in response to the news reports; it reasoned that the evidence
related only to “the statements’ materiality and not price
impact.” Id. at 90a-91a. The court ultimately determined
that petitioners had not rebutted the Basic presumption,
because they had not “conclusively” proven a “complete
lack” of price impact. Id. at 89a, 92a.
3. On interlocutory appeal, the court of appeals vacated the district court’s order. Pet. App. 60a-78a. The
court of appeals held that the district court had erred by
failing to apply the preponderance-of-the-evidence standard in determining whether petitioners had rebutted the
Basic presumption. Id. at 78a. In articulating that standard, however, the court of appeals rejected petitioners’ argument that, under Federal Rule of Evidence 301, a defendant bears only the burden of production to rebut the

15
Basic presumption and not the ultimate burden of persuasion. Id. at 75a-76a. The court explained that, while Rule
301 was the default rule governing presumptions, the
Basic presumption had “altered” that rule and “imposed
a burden of persuasion on defendants.” Id. at 75a.
The court of appeals held that the district court had
also erred by refusing to consider evidence that Goldman
Sachs’ generic statements had no price impact because
the stock price had not declined in response to the news
reports. Pet. App. 76a. The court of appeals observed
that the district court had erroneously deemed the evidence to be “evidence of the statements’ lack of materiality” not permitted at class certification. Ibid. As the court
of appeals explained, “[a]lthough price impact touches on
materiality, which is not an appropriate consideration at
class certification, it ‘differs from materiality in a crucial
respect’ ” because it “refers to the effect of a misrepresentation on a stock price.” Id. at 77a (quoting Halliburton
II, 573 U.S. at 282).
4. a. On remand, petitioners again sought to rebut
the Basic presumption by showing that the challenged
statements had no price impact. In addition to pointing to
the nature of the statements themselves, they presented
extensive economic and empirical evidence that the challenged statements did not affect the stock price when they
were made, and that the price decreases following the
“corrective disclosures” were not attributable to any correction of the alleged misstatements.
First, petitioners demonstrated, and respondents conceded, that the market did not react when the alleged misstatements were made. J.A. 427-428; Pet. App. 68a; C.A.
App. 4489.
Second, one of petitioners’ experts, Dr. Paul Gompers,
demonstrated that Goldman Sachs’ stock price did not
move on any of the 36 dates on which the press reported

16
that Goldman Sachs had conflicts of interest. J.A. 442453, 467-469. He thus concluded that the stock-price
drops on the dates of the alleged “corrective disclosures”
were not attributable to the alleged misstatements. J.A.
472-473.
Third, another of petitioners’ experts, Dr. Stephen
Choi, demonstrated that reports of government enforcement activity, not any “correction” of the alleged misstatements, “accounted for the full” amount of the declines in Goldman Sachs’ stock price on the three alleged
“corrective disclosure” dates. J.A. 526-530. As to the first
alleged “corrective disclosure” date—when the SEC filed
its enforcement action concerning the Abacus CDO—Dr.
Choi found that the decline on that date was “not statistically different from” declines experienced by other companies facing similar SEC enforcement actions. J.A. 528.
As to the other two alleged “corrective disclosure” dates,
Dr. Choi relied on an analysis of market commentary and
academic literature, together with Dr. Gompers’ analysis,
to conclude that the stock-price drops were attributable
to the allegations that Goldman Sachs was the subject of
DOJ and SEC investigations. J.A. 557-568.
Fourth, petitioners’ final expert, Dr. Laura Starks,
demonstrated that generic statements such as the ones at
issue are pervasive in the market and that “analysts did
not view [those] statements as containing information
pertinent to an investment decision-making process.”
J.A. 599-605, 626. Indeed, Dr. Starks showed that the
statements “were not mentioned” in any of the over 800
analyst reports on Goldman Sachs published during the
class period. J.A. 612, 619-620.
b. In response, respondents put forward a single expert, Dr. John Finnerty, who opined that Goldman Sachs’
stock price experienced statistically significant declines

17
on the purported “corrective disclosure” dates. He speculated that those declines were substantially caused by “a
series of revelations concerning Goldman’s alleged fraudulent conduct related to the management of its Conflicts
of Interest and its Business Principles.” J.A. 642.
Remarkably, however, Dr. Finnerty conceded that he
did not “do any work to assess whether any inflation entered Goldman Sachs’ stock price prior to the start of the
class period.” J.A. 775. He also did not test whether the
challenged statements maintained any inflation in the
stock price. He conceded that he “d[id]n’t know” whether
“the stock price [would] have fallen” if Goldman Sachs
“had not made the statements.” J.A. 783. As to the stock
drops following the alleged “corrective disclosures,” Dr.
Finnerty did not attempt to analyze whether those declines resulted from the market learning for the first time
that the challenged statements were false. C.A. App.
3711-3722. And he made no effort to measure the effect
that the reports of government enforcement activity had
on the stock price on the three alleged “corrective disclosure” dates. J.A. 685.
c. The district court again certified the class, determining that petitioners had failed to rebut the Basic presumption by a preponderance of the evidence. Pet. App.
47a-59a. The court rejected petitioners’ argument that
the statements at issue were so generic that they “could
not have impacted” the stock price. D. Ct. Dkt. 192, at 5
n.2, 12-13 & n.8; C.A. App. 8277, 8287.
The district court also rejected petitioners’ “attempts
to demonstrate the misstatements’ complete lack of price
impact” as “not persuasive,” despite the uncontradicted
evidence that the news reports of conflicts on 36 prior
dates had not affected the stock price. Pet. App. 54a. That
evidence, according to the court, “[was] not sufficient to
sever the link between the first corrective disclosure and

18
the subsequent stock price drop.” Id. at 55a. The court
also refused to credit petitioners’ evidence that the stock
price dropped because of the reports of government enforcement activity, not because of any “correction” of the
alleged misstatements. Id. at 57a-59a.
5. On interlocutory appeal, a new panel of the court
of appeals affirmed in a divided opinion. Pet. App. 1a-46a.
a. The court of appeals first rejected petitioners’ argument that the inflation-maintenance theory requires
evidence demonstrating that the alleged inflation has
been induced by fraud. Pet. App. 17a. The court reasoned
that the theory requires a court to find only that a corrective disclosure “caused a reduction in a defendant’s share
price.” Id. at 18a. Upon making such a finding, a court
can then “infer that the price was inflated by the amount
of the reduction.” Ibid.
The court of appeals then turned to petitioners’ arguments about the generic nature of the statements. Despite the first panel’s detailed discussion of Halliburton
II, a majority of the second panel rejected petitioners’ argument that the district court erred by refusing to consider the generic nature of the statements as evidence
that the challenged statements did not affect the stock
price. Pet. App. 19a-27a.
While the court of appeals recognized that “[p]rice impact * * * resembles materiality,” it characterized petitioners’ argument as an attempt to “smuggl[e] materiality into Rule 23.” Pet. App. 22a, 23a. According to the
court, whether misstatements are “too general to demonstrate price impact has nothing to do with the issue of
whether common questions predominate,” because the issue of materiality is “common to all class members.” Id.
at 23a. The court noted that defendants could still challenge materiality in moving to dismiss or for summary
judgment. Id. at 26a-27a.

19
Having refused to consider the generic nature of the
alleged misstatements, the court of appeals proceeded to
determine that petitioners had failed to rebut the Basic
presumption by a preponderance of the evidence. Pet.
App. 27a-35a. The court characterized petitioners’ burden as a “heavy” one, explaining that petitioners could rebut the Basic presumption only by showing that the “entire price decline on the corrective-disclosure dates was
due to something other than [their] alleged misstatements.” Id. at 28a & n.18. The court repeatedly stressed
that petitioners bore the burden of persuasion in rebutting the presumption. Id. at 11a, 28a & n.18, 29a, 32a-33a
n.19.
The court of appeals discounted petitioners’ evidence
that the decline in Goldman Sachs’ stock price was attributable not to investors learning of alleged conflicts of
interest, but rather to reports of government enforcement
activity. Pet. App. 29a-31a. The court acknowledged that
it was “possible” that “Goldman’s price declined in part
because the market feared that Goldman would be fined.”
Id. at 30a. According to the court, however, that was “not
enough” to rebut the Basic presumption. Ibid.
b. Judge Sullivan dissented. Pet. App. 39a-46a. He
criticized the majority’s approach for “miss[ing] the forest
for the trees” and “essentially turning the [Basic] presumption on its head.” Id. at 39a. In Judge Sullivan’s
view, petitioners had “offered persuasive and uncontradicted evidence” that Goldman Sachs’ stock price was “unaffected” by the news reports of the alleged conflicts of
interest—“thereby severing the link that undergirds the
Basic presumption.” Ibid. Respondents, for their part,
“offered no hard evidence, expert or otherwise, to refute
[that] proof.” Id. at 44a-45a. Instead, respondents
demonstrated only that Goldman Sachs’ stock price declined in response to negative news about the firm, which

20
merely illustrated that its “stock traded in an efficient
market.” Id. at 41a. Judge Sullivan reasoned that, under
the majority’s approach, “the Basic presumption is truly
irrebuttable and class certification is all but a certainty in
every case.” Id. at 44a.
Judge Sullivan also faulted the majority for refusing
to “consider the nature of the alleged misstatements in assessing whether and why the misrepresentations did not
in fact affect the market price of [the] stock.” Pet. App.
44a (internal quotation marks and citation omitted).
“Candidly,” he said, “I don’t see how a reviewing court can
ignore the alleged misrepresentations when assessing
price impact.” Ibid. Judge Sullivan posited that the generic nature of the statements provided the “obvious explanation” for the absence of a price decline in response
to the news reports of the alleged conflicts. Id. at 44a-45a.
SUMMARY OF ARGUMENT

I. A defendant in a securities class action may rebut
the presumption of classwide reliance established in Basic
Inc. v. Levinson, 485 U.S. 224 (1988), by pointing to the
generic nature of the alleged misstatements as evidence
that the statements did not affect the price of the security.
A. In Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) (Halliburton II), this Court made
clear that a defendant in a securities class action may introduce evidence of the absence of price impact to rebut
the Basic presumption at class certification. A court may
not “artificially limit” the evidence used to rebut the presumption, even if the same evidence is also “highly relevant” at the merits stage. As this Court explained, price
impact is Basic’s “fundamental premise”; without it, there
is no basis for concluding that plaintiffs indirectly relied
on the alleged misrepresentations by purchasing at the
market price. Outside the securities context, too, the

21
Court has recognized that the required inquiry under
Federal Rule of Civil Procedure 23 will frequently overlap
with the merits inquiry.
B. The generic nature of an alleged misstatement is
powerful evidence of the absence of price impact. The
more generic the statement, the less likely the statement
is to move the market price of a security. The generic nature of an alleged misstatement is especially relevant
when plaintiffs invoke the inflation-maintenance theory.
In such a case, if an alleged “corrective disclosure” reduces the stock price, a court will infer that the original
price was inflated by the amount of the reduction. But
that inference is warranted only to the extent the original
misstatement and the corrective disclosure have the same
informational content. The nature of the alleged misstatement is critical to any defendant’s efforts to dispute that
inference.
C. This Court’s decision in Amgen Inc. v. Connecticut
Retirement Plans & Trust Fund, 568 U.S. 455 (2013),
does not compel a contrary result. In Amgen, the Court
held that a defendant in a securities class action could not
rebut the Basic presumption by disproving materiality at
class certification. Here, petitioners are not asking for a
determination of the legal question whether the statements are material. Petitioners’ submission is more modest: the generic nature of the alleged misstatements is
simply evidence of the absence of price impact that must
be considered at class certification. Amgen does not require a court to ignore such evidence merely because the
price-impact inquiry overlaps with the materiality inquiry. Indeed, in Halliburton II, the Court squarely rejected the argument that Amgen prohibited a defendant
from introducing evidence of the absence of price impact
at class certification because such evidence was also relevant to a merits issue.

22
D. If upheld, the court of appeals’ approach would
have adverse consequences.
For starters, that approach would make it virtually
impossible for a defendant to rebut the Basic presumption. The inflation-maintenance theory already hinders a
defendant’s ability to rebut the presumption by pointing
to the absence of price movement at the time of the alleged misstatement. If the generic nature of the alleged
misstatement is off-limits, a court cannot critically evaluate whether the connection between the alleged misstatement and the alleged “corrective disclosure” supports an
inference that the back-end price drop is evidence of
front-end price inflation.
The court of appeals’ approach would also impose serious costs on public companies and their shareholders.
Because most securities class actions that survive the motion-to-dismiss stage settle, a virtually irrebuttable Basic
presumption would allow plaintiffs with meritless claims
to force corporations to choose between costly litigation
and a costly settlement. Those consequences are especially troubling in light of the increase in event-driven securities litigation, in which plaintiffs work backward from
a stock drop following a negative corporate event to allege
securities fraud. Because virtually all public companies
make generic statements like those challenged here,
plaintiffs need only identify such statements and assert
that the statements “maintained” an inflated stock price
before the negative event. The Court should reject the
court of appeals’ approach—which makes it all too easy to
obtain class certification—and hold that a defendant may
point to all relevant price-impact evidence to rebut the
Basic presumption.
II. The plaintiffs in a securities class action retain the
ultimate burden of persuasion to prove price impact when
invoking the Basic presumption.

23
A. Federal Rule of Evidence 301 provides that “the
party against whom a presumption is directed has the
burden of producing evidence to rebut the presumption,”
and the burden of persuasion “remains on the party who
had it originally.” The only exception is when a federal
statute or rule “provide[s] otherwise.” That plain text imposes the burden of persuasion on plaintiffs. The Basic
presumption is undoubtedly a presumption to which Rule
301 applies, and there is no statute or rule shifting the
burden.
B. The court of appeals offered no valid response to
that plain-text argument. The court of appeals suggested
that an interpretation of Basic that imposes the burden of
persuasion on the defendant has a “sufficient link” to Section 10(b), but Rule 301 applies unless a statute—not a
“link” to a statute—provides otherwise. Even if a “link”
could be sufficient, this one is too tenuous: no statute even
creates the private right of action under Section 10(b), and
a fortiori no statute creates the Basic presumption. And
even if the Court has the authority to shift the burden of
persuasion itself, it has not previously done so in the context of the Basic presumption and should not do so now.
III. The Court should apply the correct legal framework and reverse the judgment upholding class certification in this case. The court of appeals has rendered the
Basic presumption effectively irrebuttable, and the lower
courts sorely need guidance on how properly to apply that
presumption.
Under a correct application of the Basic presumption,
this is an easy case. The alleged misstatements conveyed
anodyne sentiments that were unlikely to affect Goldman
Sachs’ stock price. That alone is weighty evidence of the
absence of price impact. Petitioners also offered extensive economic evidence confirming that the alleged misstatements had no price impact when made and that the

24
price drops following the “corrective disclosures” were
not attributable to the misstatements. The only rational
inference is that the statements did not affect the stock
price, and the class thus should not have been certified.
The Court should reverse the court of appeals’ judgment
and ensure that the Basic presumption remains just
that—a presumption.
ARGUMENT
I.

A DEFENDANT IN A SECURITIES CLASS ACTION
MAY REBUT THE BASIC PRESUMPTION OF CLASSWIDE RELIANCE BY POINTING TO THE GENERIC
NATURE OF THE ALLEGED MISSTATEMENTS

The court of appeals erred by holding that a defendant
cannot rebut the presumption of classwide reliance established in Basic Inc. v. Levinson, 485 U.S. 224 (1988), by
pointing to the generic nature of the alleged misstatements as evidence that the statements did not affect the
stock price. In Halliburton Co. v. Erica P. John Fund,
Inc., 573 U.S. 258 (2014) (Halliburton II), this Court made
clear that such evidence must be considered. Adopting
the court of appeals’ approach would render the Basic
presumption virtually irrebuttable and impose enormous
costs on public companies and their shareholders.
A. In Determining Whether A Defendant Has Rebutted
The Basic Presumption, A Court Must Consider Any
Evidence Bearing On Price Impact

1. In Halliburton II, this Court held that a defendant
must be “afforded an opportunity” to rebut the Basic presumption before class certification “with evidence that an
alleged misrepresentation did not actually affect the market price of the stock.” 573 U.S. at 284. As explained in
Basic itself, “[a]ny showing that severs the link” between
the alleged misrepresentations and the price paid by the
plaintiffs is “sufficient” to rebut the presumption. 485

25
U.S. at 269. That is because the requirements of the Basic
presumption are simply an “indirect proxy” for a showing
that the challenged statements had price impact. Halliburton II, 573 U.S. at 281. Put another way, price impact
is the “fundamental premise” underlying the Basic presumption that investors relied on the challenged statements by purchasing at the market price. Id. at 278, 282
(citation omitted). Accordingly, a defendant may rebut
the Basic presumption with any evidence that an alleged
misrepresentation did not in fact affect the stock price.
Id. at 281-282.
In so holding in Halliburton II, the Court rejected the
plaintiff’s argument that the defendants could not rebut
the Basic presumption with evidence showing a lack of
price impact. See 573 U.S. at 280-281. In fact, the defendants sought to introduce the very same evidence that they
had “earlier introduced to disprove loss causation”—before the Court held in Erica P. John Fund, Inc. v.
Halliburton Co., 563 U.S. 804 (2011) (Halliburton I), that
plaintiffs are not required to prove loss causation at class
certification—in order to show the absence of price impact. 573 U.S. at 265. Despite that overlap, the Court refused “artificially [to] limit” the evidence that a defendant
may use to rebut the Basic presumption. Id. at 282, 283.
2. The Court’s holding in Halliburton II was necessary to “maintain the consistency of the presumption with
the class certification requirements” of Rule 23. 573 U.S.
at 284. Even before Halliburton II, the Court admonished that a court considering class certification should
“determin[e] that Rule 23 is satisfied, even when that requires inquiry into the merits of the claim.” Comcast
Corp. v. Behrend, 569 U.S. 27, 35 (2013). It “cannot be
helped,” the Court has explained, that the analysis of the
requirements for class certification “[f]requently” will

26
“entail some overlap with the merits of the plaintiff’s underlying claim.” Wal-Mart Stores, Inc. v. Dukes, 564 U.S.
338, 351 (2011).
That principle applies with equal force here. It does
not matter if a defendant seeking to defeat the Basic presumption asks the court to consider evidence that is also
relevant to a merits inquiry. In conducting the “rigorous
analysis” required by Rule 23, Wal-Mart, 564 U.S. at 351
(citation omitted), a court must consider any evidence
bearing on price impact to “ensure that questions of law
or fact common to the class will ‘predominate.’ ” Halliburton II, 573 U.S. at 283 (citation omitted).
This Court’s decisions thus establish a framework for
applying the Basic presumption: plaintiffs are entitled to
invoke that presumption to establish classwide reliance on
an alleged misrepresentation, but a defendant is entitled
to rebut it at class certification. The defendant may do so
by presenting any evidence that the alleged misrepresentation did not affect the stock price, even if that evidence
is also relevant to a merits inquiry.
B. The Generic Nature Of An Alleged Misstatement Is Evidence That Is Highly Relevant To The Price-Impact
Inquiry

If the generic nature of an alleged misstatement is relevant to the price-impact inquiry, then a court must consider that evidence when a defendant seeks to rebut the
Basic presumption. In fact, the generic nature of a statement is powerful evidence of the absence of price impact.
1. As this Court has explained, “price impact” refers
to “whether the alleged misrepresentations affected the
market price.” Halliburton II, 573 U.S. at 278 (citation
omitted). Accordingly, evidence is relevant to show the
absence of price impact if it tends to show that the alleged
misrepresentation did—or did not—affect a security’s

27
market price. Cf. Fed. R. Evid. 401. While the generic
nature of an alleged misstatement may not be dispositive
in rebutting the Basic presumption, it is weighty evidence
that the statement did not affect the market price.
a. The general, aspirational quality of an alleged misstatement tends to disprove price impact because the
more generic the statement, the less likely that statement
will contain the type of information that is incorporated
into the market price of a stock. See Halliburton II, 573
U.S. at 278. As one of petitioners’ experts explained, general and aspirational statements such as the ones at issue
here are “pervasive in company communications.” J.A.
599-605. And analysts and institutional investors are unlikely to rely on such statements, as reflected by the fact
that the challenged statements here were not mentioned
in any of the over 800 analyst reports published during the
class period. J.A. 596, 609, 612-635.
It is simply intuitive that, the more generic the challenged statement, the less likely it is to affect the price of
the stock. A judge is not required to set aside common
sense in addressing the Basic presumption.
b. The nature of an alleged misstatement—and its relationship to an alleged corrective disclosure—is especially important evidence when plaintiffs invoke the inflation-maintenance theory.
The court of appeals explained that, in an inflationmaintenance case, a defendant cannot rebut the Basic
presumption by showing that the stock price did not move
at the time of the alleged misstatement. See Pet. App.
18a-19a. As the court of appeals put it, “if a court finds a
disclosure caused a reduction in a defendant’s share price,
it can infer that the price was inflated by the amount of
the reduction.” Id. at 18a. In other words, “back-end”
price deflation is treated as a proxy for showing “frontend” price inflation; plaintiffs need not even specify the

28
event that caused the front-end inflation in the first place.
In this case, respondents’ sole expert never attempted to
identify when the alleged inflation entered Goldman
Sachs’ stock price, or to isolate the incremental price effect of the reports of government enforcement activity in
the alleged corrective disclosures. See p. 17, supra.
Relying on the inflation-maintenance theory, plaintiffs
often point to negative news about a company that caused
the company’s stock to drop and then assert that, at a high
level of generality, the news corrected an earlier generic
statement. Under that approach, a report of any kind of
wrongdoing can be said to correct a nebulous statement
of the type challenged here, even if the connection between the two is tenuous.
But the inflation-maintenance theory turns on the “assumption” that the “lie’s positive effect on the share price”
is equal to “the additive inverse of the truth’s negative effect.” In re Vivendi, S.A., Securities Litigation, 838 F.3d
223, 255 (2d Cir. 2016) (citation omitted). And that assumption makes sense only where the alleged misstatement closely aligns with the “corrective disclosure.” If
there is a mismatch in the content of those two statements—if the alleged “lie” on the front end and the alleged “corrective disclosure” on the back end do not have
the same informational content—there is far less reason
to infer from the subsequent price drop that the alleged
misstatement actually maintained any existing price inflation.
In applying the Basic presumption, then, a court must
closely examine whether the alleged corrective disclosure
truly “reveal[ed] to the market the falsity” of the generic
statement or instead contained other negative news that
led to the price drop. Pet. App. 6a. The more general and
aspirational the alleged misstatement, the less likely the
alleged “corrective disclosure” in fact corrected that

29
statement. Indeed, that is why the inflation-maintenance
theory at most makes sense where plaintiffs identify specific misstatements—such as those about a discrete financial or operational metric—that the alleged corrective disclosure directly corrects. See, e.g., FindWhat Investor
Group v. FindWhat.Com, 658 F.3d 1282, 1293-1294 (11th
Cir. 2011), cert. denied, 568 U.S. 814 (2012).
c. In sum, the nature of the challenged statement is
highly relevant at both the “front end” and the “back end”
in an inflation-maintenance case. As to the front end: the
more generic a statement, the less likely it is to have affected the stock price. And as to the back end: the more
tenuous the connection between the information in the alleged misstatement and the corrective disclosure, the less
probative the back-end price drop is of front-end price inflation.
2. Respondents have disputed that an alleged misstatement is evidence of price impact not by challenging
its relevance, but rather by advancing the remarkable
claim that the nature of the statement is not a “form of
evidence” at all. Br. in Opp. 17-18 (internal quotation
marks omitted).
It cannot seriously be challenged, however, that an alleged misstatement constitutes evidence in a securities
case. Plaintiffs could never prove a securities claim without identifying—and introducing into evidence—the alleged misstatement. The nature of the statement is also
clearly relevant evidence at class certification: plaintiffs
invoking the Basic presumption may rely on a statement
to establish that the “misrepresentation[] w[as] publicly
known,” Amgen Inc. v. Connecticut Retirement Plans &
Trust Funds, 568 U.S. 455, 471 (2013) (citation omitted),
and a defendant may submit an “event study” in which one
of the events is “the specific misrepresentation asserted
by the plaintiffs” to prove that the alleged misstatement

30
did not affect the price, Halliburton II, 573 U.S. at 281.
This Court should reject the court of appeals’ “artificial[]”
restriction on the kind of evidence a court may consider in
evaluating price impact at class certification. See id. at
283.
C. This Court’s Decision In Amgen Does Not Require A
Contrary Approach

Contrary to the court of appeals’ conclusion, this
Court’s decision in Amgen, supra, does not require a court
to ignore the nature of the alleged misstatement when examining price impact at class certification.
1. Relying on Amgen, the court of appeals reasoned
that allowing petitioners to point to the generic nature of
the statements would “smuggl[e] materiality into Rule
23.” Pet. App. 21a-22a. That reasoning misapprehends
Amgen and overlooks Halliburton II.
In Amgen, the Court held only that “plaintiffs are not
required to prove materiality” (a substantive element of a
securities claim) at class certification, and thus that a defendant cannot rebut the presumption by showing a lack
of materiality. 568 U.S. at 468. That conclusion accords
with Halliburton I, supra, which similarly held that plaintiffs seeking class certification need not prove the element
of loss causation. See 563 U.S. at 815. Together, those
two cases stand for the unremarkable proposition that
plaintiffs need not prove their case on the merits at class
certification.
In Halliburton II, the Court squarely rejected the argument that Amgen prohibited a defendant from introducing evidence to show the absence of price impact at
class certification. See 573 U.S. at 282. The plaintiff in
Halliburton II had argued that price impact should not
be adjudicated at class certification because evidence of
price impact “necessarily establishes materiality.” Resp.

31
Br. at 52, Halliburton II, supra (No. 13-317). But as the
Court explained, the “common issue of materiality,” unlike price impact, “can be left to the merits stage without
risking the certification of classes in which individual issues will end up overwhelming common ones.” 573 U.S.
at 282. “Price impact is different”: it goes to Basic’s “fundamental premise” and “has everything to do with the issue of predominance at the class certification stage.” Id.
at 283 (citation omitted).
As Halliburton II makes clear, nothing in Amgen precludes courts from considering evidence relevant to price
impact at class certification. To the contrary, the Court
expressly contemplated in Amgen that a court conducting
the class-certification inquiry would consider evidence
that is also relevant to the merits inquiry: “[m]erits questions may be considered to the extent * * * they are
relevant to determining whether the Rule 23 prerequisites for class certification are satisfied.” 568 U.S. at 466
(citing Wal-Mart, 564 U.S. at 351 n.6) (emphasis added).
The Court’s recent trio of cases regarding the Basic
presumption—Halliburton I, Halliburton II, and Amgen—and its Rule 23 cases more generally compel the following conclusion: plaintiffs are not required to prove materiality or loss causation in order to invoke the Basic presumption at class certification, but a court must consider
all evidence offered by the defense showing that the alleged misrepresentations did not actually affect the stock
price. A court may not refuse to consider evidence relevant to price impact merely because it is also relevant to
materiality and loss causation. See In re Allstate Corp.
Securities Litigation, 966 F.3d 595, 606-609 (7th Cir.
2020). That is the careful balance established by this
Court’s precedents.
2. In their brief in opposition, respondents repeatedly insisted that the “legal” issue of materiality may not

32
be considered as part of the “factual” assessment of price
impact. See, e.g., Br. in Opp. 1, 17, 18, 19-20. But petitioners do not dispute that the ultimate legal question of
whether a statement is material must be confined to the
merits stage. Instead, petitioners are making the more
modest submission that the generic nature of the alleged
misstatements is evidence of the absence of price impact
that must be considered at class certification. See pp. 2430, supra.
Nor would petitioners’ approach effectively allow a defendant to relitigate materiality by labeling “that argument a ‘price impact,’ rather than a ‘materiality,’ defense.”
Br. in Opp. 1. The materiality and price-impact inquiries
are distinct, even if related. The materiality inquiry asks
whether there is a “substantial likelihood” that the alleged
misrepresentation “would have been viewed by the reasonable investor as having significantly altered the total
mix of information made available.” Basic, 485 U.S. at
231-232 (internal quotation marks and citation omitted;
emphasis added). The price-impact inquiry, by contrast,
asks whether the alleged misrepresentation “actually affect[ed] the stock’s price.” Halliburton II, 573 U.S. at
263-264 (emphasis added).
Indeed, the Court recognized in Halliburton II that
the two inquiries are not always coextensive. As the Court
explained, “a public, material misrepresentation might
not affect a stock’s price even in a generally efficient market.” 573 U.S. at 279. In other words, even if a court determines that a reasonable investor would likely have
viewed a statement as significant, it may turn out that the
statement did not, in fact, have price impact—perhaps because of how investors actually evaluated the information
in context, or how the information was disseminated, or
any number of other reasons.

33
To be sure, the evidence used to prove (or disprove)
materiality and price impact may overlap, but that is inevitable: the Basic presumption “incorporates” the assumption that a “public and material” misrepresentation
“affect[s] the stock price,” and thus materiality is one of
the “prerequisites” for the presumption of price impact
(though it need not be proved before class certification).
Halliburton II, 573 U.S. at 276, 279. For that reason, a
defendant’s efforts to disprove price impact may resemble
the evidence used to show a lack of materiality, one of the
bases for the price-impact assumption. But that does not
provide license for a court to carve out such evidence from
consideration at class certification. Instead, a court must
consider all of the evidence relevant to price impact, even
if it overlaps with the evidence relevant at the merits
stage. That is not only consistent with Amgen, see 568
U.S. at 465-466, but affirmatively mandated by this
Court’s other precedents, see pp. 24-26, supra.
D. The Court Of Appeals’ Contrary Approach Would Have
Serious Adverse Consequences For Public Companies

A straightforward application of this Court’s precedents suffices to reject the court of appeals’ interpretation
of the Basic presumption. But the adverse “practical consequences of an expansion” of the presumption provide
another reason to do so. Stoneridge Investment Partners
LLC v. Scientific-Atlanta, Inc., 552 U.S. 148, 163 (2008).
If upheld, the court of appeals’ approach would render the
presumption effectively irrebuttable and impose enormous costs on public companies and their shareholders.
1. Under the court of appeals’ approach, defendants
would virtually never be able to rebut the Basic presumption in inflation-maintenance cases such as this one, even
with the weightiest economic evidence corroborating the

34
intuition that exceptionally generic statements are unlikely to affect the stock price.
Though this Court has never endorsed the inflationmaintenance theory, several courts of appeals have. See
pp. 28-29, supra. And the theory is becoming increasingly
popular; according to one estimate cited by the court below, plaintiffs have asserted that theory in some 71% of
recent district-court cases involving the Basic presumption—and have successfully established price impact in
every one of those cases. See Note, Congress, the Supreme Court, and the Rise of Securities-Fraud Class Actions, 132 Harv. L. Rev. 1067, 1077 (2019); Pet. App. 19a
n.9.
The inflation-maintenance theory already seriously
impedes a defendant’s ability to rebut the Basic presumption. The theory allows plaintiffs to rely on the presumption even if there is no evidence that a misstatement increased the stock price when it was made. Nor do plaintiffs need to identify what statement (if any) inflated the
price in the first place. See Pet. App. 17a-19a. Instead, a
court need only focus on the back-end price impact of a
corrective disclosure, then work backward from that price
decrease, inferring from it that the alleged misstatement
maintained price inflation. See id. at 18a. If the defendant bears the ultimate burden of persuasion, but see pp.
37-43, infra, it will face the daunting task of proving that
the “entire price decline” was caused by something other
than the alleged misstatement. Pet. App. 28a.
The inability to point to the generic nature of the alleged misstatement would further hinder defendants in
inflation-maintenance cases by closing off yet another avenue to disprove price impact, thereby making it virtually
impossible to rebut the supposedly rebuttable Basic presumption. The data bear out that concern. More than

35
2,000 securities class actions have been filed since Halliburton II. See Stanford Law School, Securities Class Action Clearinghouse, Filings by Year (last visited Jan. 25,
2021) <tinyurl.com/filingsbyyear>. Yet petitioners have
identified only one case in which a court of appeals has
concluded that the defendants successfully rebutted the
Basic presumption by showing no price impact, see IBEW
Local 98 Pension Fund v. Best Buy Co., 818 F.3d 775 (8th
Cir. 2016), and only four district court cases in which defendants rebutted the presumption (even in part), see
Ohio Public Employees Retirement System v. Federal
Home Loan Mortgage Corp., Civ. No. 08-160, 2018 WL
3861840 (N.D. Ohio Aug. 14, 2018); In re Finisar Corp.
Securities Litigation, Civ. No. 11-1252, 2017 WL 6026244
(N.D. Cal. Dec. 5, 2017); In re Intuitive Surgical Securities Litigation, Civ. No. 13-1920, 2016 WL 7425926 (N.D.
Cal. Dec. 22, 2016); Erica P. John Fund, Inc. v. Halliburton Co., 309 F.R.D. 251 (N.D. Tex. 2015). Notably, in the
20 district-court cases since Halliburton II in which plaintiffs have invoked the inflation-maintenance theory, defendants have never once rebutted the Basic presumption. See Pet. App. 19a n.9.
However the Basic presumption is supposed to work
in theory, it is a mean feat to rebut it in practice. The court
of appeals’ approach would exacerbate that problem by
precluding defendants from relying on critical evidence to
show the absence of price impact. See pp. 26-30, supra.
2. The court of appeals’ approach would also impose
serious costs on public companies and their shareholders.
As this Court has long recognized, “[c]ertification of a
large class may so increase the defendant’s potential damages liability and litigation costs” that the defendant “may
find it economically prudent to settle and to abandon a
meritorious defense.” Coopers & Lybrand v. Livesay, 437
U.S. 463, 476 (1978). The fact of certification gives class-

36
action plaintiffs and their lawyers enormous leverage,
putting “hydraulic pressure” on defendants to settle. Hevesi v. Citigroup Inc., 366 F.3d 70, 80 (2d Cir. 2004). Little
wonder, then, that class certification in a securities action
almost always leads to the “extort[ion]” of a settlement by
“plaintiffs with weak claims” but massive potential damages. Stoneridge, 552 U.S. at 163-164.
The court of appeals’ approach also exacerbates the
phenomenon of “event-driven securities litigation”—i.e., a
securities action filed reflexively in the “immediate wake
of a stock drop” caused by some unanticipated event.
John C. Coffee, Jr., The Changing Character of Securities
Litigation in 2019: Why It’s Time to Draw Some Distinctions, CLS Blue Sky Blog (Jan. 22, 2019) <tinyurl.com/
changingcharactersecurities>. If plaintiffs and their lawyers can obtain certification for the sort of exceptionally
generic statements that companies make all the time, see
SIFMA Cert. Br. 6-8, then they will virtually always manage to find some earlier statement with a tenuous connection to a “corrective” corporate misstep that causes a
stock drop.
Such event-driven securities lawsuits
threaten to “convert Rule 10b-5 into a scheme of investor’s insurance.” Dura Pharmaceuticals, Inc. v. Broudo,
544 U.S. 336, 345 (2005) (citation omitted).
Investors on the whole do not benefit from a regime of
constant event-driven class actions. Large class-action
settlements often simply transfer wealth from current
shareholders to former ones, with the plaintiffs’ bar collecting a sizable tax on the transfer. See, e.g., Janet
Cooper Alexander, Rethinking Damages in Securities
Class Actions, 48 Stan. L. Rev. 1487, 1503, 1507 (1996).
Whatever value securities class actions might have in deterring false statements about, say, specific financial or
operational metrics, it makes little sense to encourage
lawsuits where the plaintiffs work backward from a price

37
drop to allege securities fraud based on commonplace corporate statements.
Respondents have suggested (Br. in Opp. 22-23) that
the possibility that a defendant can still challenge materiality at the motion-to-dismiss and summary-judgment
stages will prevent abusive litigation. But the element of
materiality will “rarely be dispositive” at the motion-todismiss stage. In re Morgan Stanley Information Fund
Securities Litigation, 592 F.3d 347, 360 (2d Cir. 2010). At
that stage, a court will evaluate the statement’s materiality based only on the plaintiffs’ allegations and the court’s
expectations about investor behavior, and it will grant a
motion to dismiss only if the statement is “so obviously
unimportant to a reasonable investor that reasonable
minds could not differ on the question of [its] importance.”
ECA & Local 134 IBEW Joint Pension Trust of Chicago
v. JP Morgan Chase Co., 553 F.3d 187, 197 (2d Cir. 2009).
And most securities class actions never reach summary
judgment, given the cost of discovery and inordinate pressure to settle following class certification. See RLC Cert.
Br. 8-10. The Court should not sanction a regime in which
the Basic presumption is effectively irrebuttable and a
motion to dismiss is a defendant’s only protection against
abusive litigation.
II. THE PLAINTIFFS IN A SECURITIES CLASS ACTION
RETAIN THE ULTIMATE BURDEN OF PERSUASION
WHEN INVOKING THE BASIC PRESUMPTION

Stacking the deck even further in favor of securities
plaintiffs, the court of appeals held that a defendant bears
the burden of persuasion to rebut the Basic presumption.
Under Federal Rule of Evidence 301, however, a defendant attempting to rebut the Basic presumption bears only
the burden of production; the plaintiffs bear the ultimate
burden of persuasion on the issue of price impact. Accordingly, to rebut the presumption, a defendant need only

38
produce evidence that the alleged misrepresentation did
not affect the stock’s price; the defendant need not establish the absence of price impact.
A. Federal Rule of Evidence 301 establishes that the
burden of persuasion in a securities class action does not
shift to the defendant when the plaintiffs successfully invoke the Basic presumption.
1. Rule 301 states: “In a civil case, unless a federal
statute or these rules provide otherwise, the party against
whom a presumption is directed has the burden of producing evidence to rebut the presumption. But this rule does
not shift the burden of persuasion, which remains on the
party who had it originally.” Because the Federal Rules
of Evidence are a “legislative enactment,” they are interpreted according to the “traditional tools of statutory construction.” Beech Aircraft Corp. v. Rainey, 488 U.S. 153,
163 (1988) (citation omitted).
The text of Rule 301 reflects this Court’s case law on
burdens and presumptions. The Court has long distinguished between the “burden of production” and the “burden of persuasion.” Director, Office of Workers’ Compensation Programs v. Greenwich Collieries, 512 U.S. 267,
274-275 (1994) (citing cases); see 2 Kenneth S. Broun et
al., McCormick on Evidence § 336, at 691-694 (8th ed.
2020) (McCormick). The burden of production refers to a
party’s obligation to “come forward with evidence to support its claim.” Greenwich Collieries, 512 U.S. at 272. The
burden of persuasion refers to a party’s obligation to “persuade the trier of the facts * * * of the truth of a proposition which he has affirmatively asserted.” Id. at 275.
This Court has explained that a “presumption” is a
rule that a “finding of [a] predicate fact” produces a “required conclusion in the absence of explanation.” St.
Mary’s Honor Center v. Hicks, 509 U.S. 502, 506 (1993);
see 2 McCormick § 342, at 724. A presumption “assist[s]

39
courts in managing circumstances in which direct proof,
for one reason or another, is rendered difficult.” Basic,
485 U.S. at 245. As this Court has also explained, “all presumptions” operate in the same manner: they shift the
burden of production to the opposing party, but leave the
“ultimate burden of persuading the trier of fact” with the
party that ordinarily bore that burden. Hicks, 509 U.S. at
507.
Accordingly, under the plain terms of Rule 301 and
this Court’s case law, the “burden of persuasion” does not
shift but instead “remains on the party who had it originally.” Fed. R. Evid. 301.
2. Rule 301 plainly applies to the Basic presumption.
To begin with, Basic established a “presumption”: if the
plaintiffs show that “the defendant’s misrepresentation
was public and material,” that “the stock traded in a generally efficient market,” and that they “purchased the
stock at the market price,” then they are entitled to a
“presumption” that “the misrepresentation affected the
stock price” and a “further presumption” that they “purchased the stock in reliance on the defendant’s misrepresentation.” Halliburton II, 573 U.S. at 279.
The burden of persuasion at class certification, moreover, is “originally” on the plaintiffs. Plaintiffs “seeking
to maintain” a class action “ ‘must affirmatively demonstrate [their] compliance’ with Rule 23.” Comcast, 569
U.S. at 33 (quoting Wal-Mart, 564 U.S. at 350). Indeed,
the Court in Halliburton II expressly reaffirmed that the
Basic presumption “does not relieve plaintiffs of the burden of proving” predominance under Rule 23(b)(3). 573
U.S. at 276.
Finally, no statute or Federal Rule of Evidence “provide[s]” that Rule 301’s burden-shifting framework is inapplicable to the Basic presumption. Rule 301 therefore
applies.

40
B. The court of appeals offered no valid answer to
Rule 301’s text. Instead, it posited that the Basic presumption is a “substantive doctrine of federal law” that
“altered the default rule and imposed a burden of persuasion on defendants seeking to rebut it.” Pet. App. 75a.
That is incorrect.
1. In an earlier decision, the court of appeals reasoned that, because the Basic presumption was “adopted
by the Supreme Court pursuant to federal securities
laws,” there is a “sufficient link” to those laws to “meet
Rule 301’s statutory element requirement.” Waggoner v.
Barclays PLC, 875 F.3d 79, 103 (2d Cir. 2017), cert. denied, 138 S. Ct. 1702 (2018); see pp. 14-15, supra. But a
“link” to a federal statute is not a “federal statute,” and
the court of appeals’ interpretation bends Rule 301’s text
past breaking.
In any event, the supposed “link” between the Basic
presumption and a federal statute is extremely weak. No
statute expressly allocates the burdens of proof. No statute establishes the presumption; it was a judicial creation.
See Basic, 485 U.S. at 242. And no statute even creates
the civil cause of action for securities fraud; that too is a
judicial creation. See Superintendent of Insurance v.
Bankers Life & Casualty Co., 404 U.S. 6, n.9 (1971). Accordingly, the burdens of proof for the presumption are at
least three steps removed from being “provide[d]” by a
statute. Even if a “link” to a statute were all that Rule 301
required, that tenuous link would not suffice.
2. Even assuming that the Court could deviate from
the dictates of Rule 301, none of its decisions applying the
Basic presumption indicates that it has done so.
a. The court of appeals justified its departure from
Rule 301 by pointing to isolated language from Halliburton II that, the court claimed, put the burden of persuasion on defendant. See Waggoner, 875 F.3d at 101. In

41
Halliburton II, the Court stated that a defendant could
rebut the presumption with “any showing that severs the
link between the alleged misrepresentation and the price
received (or paid) by the plaintiff.” 573 U.S. at 281 (quoting Basic, 485 U.S. at 248) (emphasis added; alterations
omitted). But that language supports the opposite conclusion. A party obligated to make “any showing” bears only
a burden of production, not the ultimate burden of persuasion. See, e.g., Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986).
Regardless, a few passing statements in an opinion—
which is not “to be parsed [like] language of a statute”—
is scant evidence that the Court intended somehow to shift
the burden of persuasion. Reiter v. Sonotone Corp., 442
U.S. 330, 341 (1979). Indeed, the court of appeals’ parsing
of Halliburton II ignores more obvious clues that undermine its claim: in Basic itself, the Court cited Rule 301 in
describing the “presumption” at issue, and the Court
never indicated that its novel presumption would operate
differently from presumptions covered by the rule. See
485 U.S. at 246-247. In fact, just a few years later, the
Court explained that “all presumptions” operate as described in Rule 301. Hicks, 509 U.S. at 507.
In a similar vein, respondents claim that petitioners’
argument conflicts with the Court’s refusal in Halliburton
II to require plaintiffs to “prove” price impact. See Br. in
Opp. 30. But under the rule rejected in Halliburton II,
plaintiffs would have been required to come forward with
price-impact evidence in every case, and a defendant
could simply criticize the plaintiffs’ evidence without producing any evidence of its own. By contrast, under a
proper application of Rule 301, a defendant must still produce evidence tending to show the absence of price impact; once it does, the ultimate burden of persuasion lies

42
with the plaintiffs. That regime creates incentives for defendants to produce evidence of the absence of price impact without “impos[ing] [a] heavy toll on securities-fraud
plaintiffs with tenable claims.” Halliburton II, 573 U.S.
at 284 (Ginsburg, J., concurring).
b. The court of appeals also suggested that it was
“consistent with the purpose of the presumption” to impose the burden of persuasion on the defendant. Pet. App.
75a. That, too, is wrong. The Basic presumption “assist[s] courts in managing circumstances in which direct
proof, for one reason or another, is rendered difficult.”
Basic, 485 U.S. at 245. Specifically, that judge-made presumption allows plaintiffs to rely on an “indirect proxy for
price impact,” rather than “requiring them to prove price
impact directly.” Halliburton II, 573 U.S. at 281. But if
the defendant actually comes forward with evidence that
rebuts the “indirect proxy,” the presumption has served
its purpose by compelling the defendant to introduce evidence that “sharpen[s] the inquiry” on the question of
price impact. Texas Department of Community Affairs
v. Burdine, 450 U.S. 248, 255 n.8 (1981).
3. Finally on this score, respondents have argued
that the Court retains the “authority to establish burdenshifting frameworks consistent with its understanding of
a federal statute.” Br. in Opp. 31. But respondents’ only
authority for that proposition is a footnote in NLRB v.
Transportation Management Corp., 462 U.S. 393, 404 n.7
(1983), which reached a “cursory answer to an ancillary
and largely unbriefed question.” Greenwich Collieries,
512 U.S. at 277. Even if the Court retains the “authority”
to establish burden-shifting frameworks that are not dictated by a statute or rule—contrary to Rule 301’s plain
text—there is no good reason to exercise that authority in
the Basic context. To the contrary, consistent with Rule

43
23 and Basic itself, the Court should make clear that Rule
301’s framework applies. See pp. 38-39, supra.
III.

THE COURT SHOULD REVERSE THE JUDGMENT
BELOW

For the foregoing reasons, the court of appeals erred
by holding that it could not consider the generic nature of
the alleged misstatements and by imposing the burden of
persuasion on petitioners. If this Court agrees that either
holding was erroneous, it should proceed to apply the correct legal framework and reverse the judgment upholding
class certification in this case. The evidence here “permits
only one resolution of the factual issue,” and the Court
should not give respondents a third—and futile—bite at
the apple. Pullman-Standard v. Swint, 456 U.S. 273, 292
(1982). Under the correct legal framework, petitioners
met their burden of production and, if applicable, their
burden of persuasion to prove the absence of price impact.
The court of appeals’ judgment should therefore be reversed.
A. Petitioners rebutted the Basic presumption by
producing direct, uncontradicted evidence that the challenged statements had no price impact.
1. Properly considered, the nature of the challenged
statements here is powerful evidence that they did not affect the stock price. See pp. 26-30, supra. Those statements conveyed the most general and aspirational of sentiments, such as “[w]e have extensive procedures and controls that are designed to identify and address conflicts of
interest” and “[o]ur clients’ interests always come first.”
Pet. App. 4a. Indeed, many of the statements were repeated in company communications for years both before
and after the class period. J.A. 587-589; Goldman Sachs,
Annual Report 10 (2019) <tinyurl.com/annualreport-gs2019>. As Judge Sullivan recognized, the statements

44
were so generic that “no reasonable investor would have
attached any significance” to them. Pet. App. 44a-45a.
The nature of the challenged statements is especially
strong evidence of the absence of price impact here because respondents are relying on the inflation-maintenance theory. As explained above, the exceptionally generic nature of the statements casts doubt on whether, as
respondents assert, the alleged “corrective disclosures”
were truly corrective of the statements, and thus on
whether the corresponding stock-price drops revealed the
statements’ impact. See pp. 27-29, supra.
For example, take the challenged statement that Goldman Sachs has “extensive procedures and controls that
are designed to identify and address conflicts of interest.”
Pet. App. 4a. Plaintiffs do not claim that there was a disclosure revealing that Goldman Sachs did not in fact have
such procedures and controls. Rather, respondents rely
on a disclosure of allegations that Goldman Sachs had isolated conflicts in one part of its mortgage business. There
is a glaring disconnect between the informational content
of the alleged statement and of that disclosure. The same
can be said for all of the other statements. J.A. 214-217,
222-226. The obvious inference is thus that confounding
information in the “corrective disclosures”—i.e., the reports of government enforcement activity—caused the
back-end price drop.
2. Because the highly generic nature of the challenged statements here is strong evidence that they did
not affect the stock price, the additional evidence necessary for petitioners to rebut the Basic presumption is correspondingly reduced. Given the nature of the statements, petitioners’ overwhelming economic and empirical
evidence is plainly sufficient to show that the statements
had no price impact.

45
It was undisputed that the challenged statements did
not affect the stock price when made. Pet. App. 68a.
Thus, respondents’ theory of price impact relied solely on
Dr. Finnerty’s opinion that Goldman Sachs’ stock price
decreased in a statistically significant manner on the alleged “corrective disclosure” dates. J.A. 373-374.
In response, petitioners presented overwhelming evidence that the price decreases following the “corrective
disclosures” were not attributable to any correction of the
alleged misstatements.
First, one of petitioners’ experts, Dr. Gompers, testified that “36 news reports * * * had in fact already revealed the supposed falsity of the alleged misrepresentations prior to the three ‘corrective disclosure’ dates, with
no discernible impact on the price of Goldman’s shares.”
Pet. App. 40a (Sullivan, J., dissenting). Some of those
news reports discussed the conflict involving the Abacus
CDO, which was later identified in the SEC’s enforcement
action (respondents’ principal corrective disclosure), and
also the conflict involving the Hudson CDO, which was the
focus of respondents’ third corrective disclosure. See J.A.
689-694; C.A. App. 142-143, 146-147. The lack of movement in the share price on the dates of the news reports
“proved that the later drop was caused by something
other than the disclosure of the alleged conflicts.” Pet.
App. 41a-42a (Sullivan, J. dissenting).
Second, petitioners established what did cause the
stock-price drops on respondents’ “corrective disclosure”
dates. Specifically, another of petitioners’ experts, Dr.
Choi, conducted an analysis and concluded that reports of
government enforcement activity and the uncertainties
associated with such activity—not any correction of the
alleged misstatements—“accounted for the full” amount
of the price drop. J.A. 529-530, 557-571. As Judge Sullivan explained, Dr. Choi’s analysis confirmed the “most

46
obvious explanation” for the price drop: it was “caused by
news that the SEC and DOJ were pursuing enforcement
actions against Goldman.” Pet. App. 45a.
Third, Dr. Choi’s findings were corroborated by the
last of petitioners’ experts, Dr. Starks, who showed that
Goldman Sachs’ Business Principles and conflicts warnings “were not mentioned” in any of the over 800 analyst
reports on Goldman Sachs published during the class period. But the analyst reports did “discuss[] the SEC enforcement action and other enforcement activities.” J.A.
612, 619-620. Thus, Dr. Starks’ analysis confirmed that
investors did not consider the challenged generic statements in making investment decisions, but did consider
the reports of government enforcement activity.
Taken together, petitioners’ evidence “clearly compels
the conclusion that the stock drop following the corrective
disclosures was attributable to * * * news that the
SEC and DOJ were pursuing enforcement actions against
Goldman,” not any correction of the alleged misstatements. Pet. App. 45a (Sullivan, J., dissenting).
3. Respondents “offered no hard evidence, expert or
otherwise, to refute [petitioners’] proof” that the price
drops following the “corrective disclosures” were not attributable to the misstatements. Pet. App. 45a-46a (Sullivan, J., dissenting). Dr. Finnerty, respondents’ sole expert, conceded that he did not “do any work to assess
whether any inflation entered Goldman Sachs’ stock price
prior to the start of the class period” and “d[id]n’t know”
whether “the stock price [would] have fallen” if Goldman
Sachs “had not made the statements.” J.A. 775, 783. He
demonstrated only that Goldman Sachs’ stock price (unsurprisingly) declined in response to negative news about
the firm. See Pet. App. 41a-42a (Sullivan, J., dissenting);
C.A. App. 3715, 3717, 3721. But Dr. Finnerty made no

47
“attempt to measure th[e] incremental impact” that reports of government enforcement activity had on the
stock price. J.A. 685.
4. Put simply, a defendant could hardly present more
powerful evidence than petitioners did here, and a plaintiff could barely present less than respondents. When a
defendant produces direct economic evidence that general, aspirational statements did not affect the stock’s
price, the defendant has easily met its burden of production to rebut the Basic presumption. The only evidence
respondents presented is that the stock price fell at the
end of the class period. But that happens in every securities-fraud case. If a stock-price drop were enough to certify a class, as the court of appeals effectively held here,
then the Basic presumption is irrebuttable—and Halliburton II is a dead letter. And if the Basic presumption
is not overcome on this record, it is difficult to envision a
case in which it could be.
B. The Court should reverse the court of appeals’
judgment even if it concludes that petitioners bear the ultimate burden of persuasion. As discussed above, respondents did not offer any evidence to counter petitioners’ powerful evidence that the price decreases were not
attributable to a correction of the alleged misstatements.
See pp. 46-47, supra. Instead, respondents merely criticized the conclusions of petitioners’ experts (without
merit) and offered unsupported speculation. That criticism is not evidence and does not tip the scales under the
preponderance-of-the-evidence standard, which “goes to
how convincing the evidence in favor of a fact must be in
comparison with the evidence against it.” Metropolitan
Stevedore Co. v. Rambo, 521 U.S. 121, 137 n.9 (1997).
Regardless of where the burden of persuasion lies,
therefore, reversal is necessary to provide much-needed

48
guidance to the lower courts and to ensure that defendants have a meaningful opportunity to rebut the Basic
presumption.
CONCLUSION

The judgment of the court of appeals should be reversed. In the alternative, the judgment should be vacated and the case remanded for further proceedings.
Respectfully submitted.
RICHARD H. KLAPPER
ROBERT J. GIUFFRA, JR.
DAVID M.J. REIN
BENJAMIN R. WALKER
JULIA A. MALKINA
JACOB E. COHEN
SULLIVAN & CROMWELL LLP
125 Broad Street
New York, NY 10004

KANNON K. SHANMUGAM
STACIE M. FAHSEL
E. GARRETT WEST
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
AUDRA J. SOLOWAY
KRISTINA A. BUNTING
SARAH J. PROSTKO
CAROLINE S. WILLIAMSON
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019

JANUARY 2021

